                                           NATIONAL SCIENCE FOUNDATION
                                                    4201 WILSON BOULEVARD
                                                   ARLINGTON, VIRGINIA 22230




         OFFICE OF
     INSPECTORGENERAL




      MEMORANDUM

~.    .D-ATE-.- - - - - - - -January.29;,.- 1-99
                       .




      TO:                  I960 10008
                           . ..

      FROM:

      VIA:

      RE:




      A review of the grant jacket and the grant's final report confirmed that computer
      equipment was purchased. In addition, the grant showed no hnds budgeted or expended
      for graduate student stipends.

      We contacted the grant's co-PI, Dr                                       who stated that the equipment
      purchased' under the grant was                                           ts and that he knew of no
      wrongdoing.

      Due to the lack o f hrther evidence and the complainant's non-cooperation, investigation                 .
      at this time is not warranted. This case is closed.
